TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2013 Statutory Audit of
                      Compliance With Legal Guidelines
                  Prohibiting the Use of Illegal Tax Protester
                           and Similar Designations



                                         August 15, 2013

                              Reference Number: 2013-30-085




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


FISCAL YEAR 2013 STATUTORY AUDIT                       against Illegal Tax Protester designations
OF COMPLIANCE WITH LEGAL                               because it was concerned that some taxpayers
GUIDELINES PROHIBITING THE USE OF                      were being permanently labeled as Illegal Tax
ILLEGAL TAX PROTESTER AND                              Protesters even though they had subsequently
                                                       become compliant with the tax laws. The label
SIMILAR DESIGNATIONS
                                                       could bias IRS employees and result in unfair
                                                       treatment.
Highlights                                             WHAT TIGTA FOUND

Final Report issued on August 15, 2013                 The IRS has not reintroduced past Illegal Tax
                                                       Protester codes or similar designations on
Highlights of Reference Number: 2013-30-085            taxpayer accounts. However, TIGTA found that
to the Internal Revenue Service Office of the          out of approximately 257 million records and
Deputy Commissioner for Services and                   cases, there were 54 instances in which
Enforcement and Deputy Commissioner for                45 employees referred to taxpayers as
Operations Support.                                    “Tax Protester,” “Constitutionally Challenged,” or
                                                       other similar designations in case narratives on
IMPACT ON TAXPAYERS                                    the computer systems analyzed.
Congress enacted the IRS Restructuring and             WHAT TIGTA RECOMMENDED
Reform Act of 1998 (RRA 98) Section 3707 to
prohibit the IRS from labeling taxpayers as            Although TIGTA made no recommendations in
Illegal Tax Protesters or any similar                  this report, IRS officials were provided an
designations. However, a few IRS employees             opportunity to review the draft report. IRS
continue to refer to taxpayers by these                management did not provide any report
designations in case narratives. Using Illegal         comments.
Tax Protester or other similar designations may
stigmatize taxpayers and may cause employee
bias in future contacts with these taxpayers.
WHY TIGTA DID THE AUDIT
This audit was initiated because TIGTA is
required to annually evaluate compliance with
the prohibition against using Illegal Tax
Protester or similar designations. Prior to
enactment of the RRA 98, the IRS used the
Illegal Tax Protester Program to identify
individuals and businesses that used methods
that were not legally valid to protest the tax laws.
IRS employees referred taxpayers to the Illegal
Tax Protester Program when their tax returns or
correspondence contained specific indicators of
noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected
by the courts.
The purpose of this audit was to determine
whether the IRS complied with RRA 98
Section 3707 and internal guidelines that
prohibit officers and employees from referring to
taxpayers as Illegal Tax Protesters and similar
designations. Congress enacted the prohibition
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 15, 2013


 MEMORANDUM FOR OFFICE OF THE DEPUTY COMMISSIONER FOR SERVICES
                AND ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                         Michael E. McKenney
                               Acting Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2013 Statutory Audit of Compliance
                               With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations (Audit # 201330007)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with the IRS Restructuring and Reform Act of 1998 (RRA 98)1 Section 3707 and
 its own internal guidelines that prohibit IRS officers and employees from referring to taxpayers
 as Illegal Tax Protesters or any similar designations. The Treasury Inspector General for Tax
 Administration (TIGTA) is required under Internal Revenue Code Section 7803(d)(1)(A)(v) to
 annually evaluate the IRS’s compliance with the provisions of RRA 98 Section 3707. The
 review is part of our Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Protecting Taxpayers’ Rights.
 Although TIGTA made no recommendations in this report, IRS officials were provided an
 opportunity to review the draft report. IRS management did not provide any report comments.
 Copies of this report are also being sent to the IRS managers affected by this report. If you have
 any questions, please contact me or Augusta R. Cook, Acting Assistant Inspector General for
 Audit (Compliance and Enforcement Operations).




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                           Fiscal Year 2013 Statutory Audit of Compliance With
                     Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                          Similar Designations




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Illegal Tax Protester Codes Were Not Used on the Master File ................... Page 3
          In a Few Instances, Employees Used Illegal Tax Protester or Similar
          Designations in Case Narratives ................................................................... Page 3
          Alternative Methods That Avoid the Need for Illegal Tax Protester
          Designations Are in Place to Address Tax Compliance Issues .................... Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
          Appendix IV – Outcome Measure ................................................................ Page 11
          Appendix V – Previous Audit Reports Related to This
          Statutory Review ........................................................................................... Page 12
          Appendix VI – Glossary of Terms ................................................................ Page 14
               Fiscal Year 2013 Statutory Audit of Compliance With
         Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                              Similar Designations




                         Abbreviations

IRS                Internal Revenue Service
RRA 98             Restructuring and Reform Act of 1998
TIGTA              Treasury Inspector General for Tax Administration
                        Fiscal Year 2013 Statutory Audit of Compliance With
                  Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                       Similar Designations




                                             Background

Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)1
Section (§) 3707 prohibits the IRS from using Illegal Tax Protester or any similar designations.
In addition, the law requires the removal of all existing Illegal Tax Protester codes from the
Master File2 and instructs IRS employees to disregard any such designation located on databases
other than the Individual Master File.
Prior to enactment of the RRA 98, the IRS used the Illegal Tax Protester Program to identify
individuals and businesses that were using methods that were not legally valid to protest the tax
laws. IRS employees identified taxpayers for referral to the Program when their tax returns or
correspondence contained specific indicators of noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected by the courts. There were tax protester
coordinators who were responsible for determining whether a taxpayer should be included in the
Illegal Tax Protester Program. If a taxpayer was classified as an Illegal Tax Protester, the
taxpayer’s record was coded as such on the Master File. Once a taxpayer’s account was coded,
certain tax enforcement actions were accelerated. The designation was also intended to alert
employees to be cautious so they would not be drawn into confrontations with taxpayers.
Congress was concerned that some taxpayers were being permanently labeled and stigmatized by
the Illegal Tax Protester designation. The concern was that this label could bias IRS employees
and result in unfair treatment of the taxpayer.
Internal Revenue Code § 7803(d)(1)(A)(v)                               The Treasury Inspector General
requires the Treasury Inspector General for Tax                           for Tax Administration is
Administration (TIGTA) to annually evaluate IRS                         required to annually evaluate
compliance with the prohibition against using the                         IRS compliance with the
Illegal Tax Protester or any similar designations. This                prohibition against using Illegal
                                                                         Tax Protester or any similar
is our fifteenth review since Fiscal Year 1999. These                           designations.
reviews have identified areas for improvement to help
the IRS comply with the Illegal Tax Protester
designation prohibition.
The IRS has long disagreed with our determination that in order to comply with RRA 98 § 3707,
IRS employees should not designate taxpayers as Illegal Tax Protesters or similar designations in
case histories. Moreover, TIGTA has previously elevated this disagreement to the Assistant


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix VI for a glossary of terms.
                                                                                                              Page 1
                     Fiscal Year 2013 Statutory Audit of Compliance With
               Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                    Similar Designations



Secretary for Management and Chief Financial Officer of the Department of the Treasury, but it
has yet to be resolved.
Based on the general decline in the use of Illegal Tax Protester or similar designations by IRS
employees in recent years, and in the interest of conserving resources, TIGTA revised its
methodology for evaluating the use of these designations on the multiple computer systems used
by IRS employees. TIGTA will continue to review the Individual Master File and related
systems annually, as required by the RRA 98, and will review other IRS systems on a periodic
basis. This year we focused on the Account Management Services System, Automated
Collection System, and Integrated Collection System.
This review was performed in the Small Business/Self-Employed Division in
New Carrollton, Maryland, and the Wage and Investment Division in Atlanta, Georgia, during
the period October 2012 through April 2013. This performance audit was conducted in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                      Fiscal Year 2013 Statutory Audit of Compliance With
                Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations




                                 Results of Review

Illegal Tax Protester Codes Were Not Used on the Master File
Prior to enactment of the RRA 98, the IRS used Illegal Tax Protester indicators on the Master
File to accelerate collection activity for taxpayers who were delinquent in filing tax returns or
paying their taxes. These indicators were also intended to alert employees that they might
encounter problems when dealing with nonfilers and delinquent taxpayers.
Congress was concerned about the use of the Illegal Tax Protester designation because:
      Taxpayers were labeled as Illegal Tax Protesters without regard to their filing obligations
       or compliance.
      Illegal Tax Protester indicators were not always reversed when taxpayers became
       compliant with their tax obligations.
RRA 98 § 3707 required the IRS to remove the existing Illegal Tax Protester designations from
taxpayers’ accounts on the Master File beginning January 1, 1999.
In prior reviews, TIGTA reported the IRS had removed these designation codes from the Master
File as required by the law. Based on our analysis of approximately 1.2 million taxpayer records
that had been coded for accelerated collection activity, the IRS has not reintroduced Illegal Tax
Protester codes on the Master File. The law also prohibits using any designation similar to
Illegal Tax Protester. We matched approximately 57,000 taxpayer accounts formerly coded as
Illegal Tax Protesters to the Master File and confirmed that the IRS had not input any other type
of similar designation on these accounts.

In a Few Instances, Employees Used Illegal Tax Protester or Similar
Designations in Case Narratives
For the period October 2011 through September 2012, our review found 54 instances out of
approximately 257 million records in which 45 employees had labeled taxpayers as
“Tax Protester,” “Constitutionally Challenged,” or other similar designations in case narratives
on the following computer systems:




                                                                                             Page 3
                        Fiscal Year 2013 Statutory Audit of Compliance With
                  Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                       Similar Designations



         Account Management Services System:3 A review of approximately 183 million records
          identified 39 instances in which 33 employees used an Illegal Tax Protester or a similar
          designation when referring to a specific taxpayer in the comment narrative field.
         Integrated Collection System: A review of approximately 46 million open and closed
          Integrated Collection System narrative comment records identified 15 instances in which
          12 employees used Illegal Tax Protester or a similar designation when referring to
          specific taxpayers in the case narratives.
TIGTA believes the 54 instances identified in the systems listed previously are prohibited by
law. Figure 1 contains the number of Illegal Tax Protester or similar designations identified in
IRS computer systems’ case narratives during our Fiscal Years 20104 and 2013 reviews. The
Automated Collection System, Integrated Collection System, and Account Management Services
System were not reviewed in Fiscal Years 2011 and 2012.
       Figure 1: Illegal Tax Protester and Similar Designations in Case Narratives

                             Fiscal Year 2010 Review                          Fiscal Year 2013 Review
                                    Protester        Similar                         Protester         Similar
Computer           Employees       Designation     Designation      Employees       Designation      Designation
System              Involved          Used            Used           Involved          Used             Used
    Account
    Management
                        79              85               14              33               38                 1
    Services
    System
    Automated
    Collection           1               1                0               0               0                  0
    System
    Integrated
    Collection          52              18               45              12               4              11
    System
    Taxpayer
    Information          1               1                0               0               0                  0
    File
Source: Case narratives found on various IRS computer systems and TIGTA’s Fiscal Year 2010 report.

TIGTA also identified 35 case narratives in which 23 employees included phrases such as
“Constitutionally Challenged” or “Frivolous Constitutional” in referring to the taxpayer’s


3
  In reviews prior to Fiscal Year 2010, we reviewed and reported on Desktop Integration. In February 2009,
Desktop Integration was integrated into the Account Management Services System.
4
  TIGTA, Ref. No. 2010-30-073, Fiscal Year 2010 Statutory Audit of Compliance With Legal Guidelines
Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jul. 2010).
                                                                                                             Page 4
                       Fiscal Year 2013 Statutory Audit of Compliance With
                 Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                      Similar Designations



arguments or actions. TIGTA agrees with the IRS that merely making references to a taxpayer’s
arguments or actions does not constitute a designation prohibited by statute. However, TIGTA is
concerned these references could become, or be considered, permanent labels that could
subsequently stigmatize taxpayers in future contacts with the IRS. TIGTA did not include any
instances in which employees were only documenting statements made by a taxpayer and/or his
or her representative because quoting a taxpayer’s self-designation as an Illegal Tax Protester is
not prohibited by the law.
The statute states that “officers and employees of the Internal Revenue Service shall not
designate taxpayers as Illegal Tax Protesters (or any similar designation).” It further specifies
that existing designations in the Master File must be removed and any other designations made
before the effective date of the statute, such as those on paper records that have been archived,
must be disregarded. Senate Committee on Finance Report 105-174 (dated April 22, 1998),
related to the RRA 98 § 3707 provision, stated the Committee was concerned that taxpayers
might be stigmatized by a designation as an “Illegal Tax Protester.” Based upon the language of
the statute and the Senate Committee Report, TIGTA believes IRS officers and employees
should not label taxpayers as Illegal Tax Protesters or similar designations in any records, which
include paper and electronic case files. Officers and employees should not designate taxpayers
as such because a designation alone contains a negative connotation and appears to label the
taxpayer.
IRS management disagrees that employee use of Illegal Tax Protester or similar designations in a
case narrative is a potential violation of the law. TIGTA continues to believe that the use of
these designations in case narratives may stigmatize taxpayers and cause employee bias in future
contacts with these taxpayers. Electronic case narratives are available to other IRS employees
for future reference and may affect the opinions and actions of employees working the taxpayers’
cases.
In its response to our Fiscal Year 2003 report,5 the IRS disagreed with our determination that to
comply with this provision, IRS employees should not designate taxpayers as Illegal Tax
Protesters or similar designations in case histories. As a result, TIGTA elevated this
disagreement to the Assistant Secretary for Management and Chief Financial Officer of the
Department of Treasury; however, this official did not take a position on the issue. Even though
IRS management continues to disagree with our interpretation of the law, they have taken a
conservative approach by implementing a policy that prohibits employees from using Illegal Tax
Protester or any similar designation. In August 2007, IRS management issued a memorandum to
all employees reminding them of this policy. In Fiscal Year 2008, guidance in the form of Alerts
and memorandums were issued to employees and portions of the Internal Revenue Manual were
updated to reflect the prohibition on using Illegal Tax Protester or any similar designation. IRS


5
 TIGTA, Ref. No. 2003-40-098, Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines
Prohibiting the Use of Illegal Tax Protester and Similar Designations (Apr. 2003).
                                                                                                     Page 5
                     Fiscal Year 2013 Statutory Audit of Compliance With
               Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                    Similar Designations



management still continues to reinforce its policy by issuing Alerts and ensuring that Internal
Revenue Manual updates retain reminders to employees regarding the prohibition on the use of
Illegal Tax Protester or similar designations.

Alternative Methods That Avoid the Need for Illegal Tax Protester
Designations Are in Place to Address Tax Compliance Issues
IRS tax compliance operations have not been significantly affected by the prohibition against
using Illegal Tax Protester or similar designations because alternative programs exist to address
issues previously handled by the Illegal Tax Protester Program. These include:
      The Frivolous Return Program that handles taxpayers who file tax returns based on some
       type of frivolous argument that justifies payment of little or no income tax. This includes
       filing a tax return claiming no income using the rationale that paying taxes is voluntary or
       claiming to be a citizen of a State but not a citizen of the United States.
      The Nonfiler Program that handles taxpayers who fail to file their required tax returns.
      The Potentially Dangerous Taxpayer/Caution Upon Contact Program that handles
       taxpayers who have assaulted and/or threatened IRS employees.
Each of these programs is set up to address various issues IRS employees may encounter when
dealing with taxpayers protesting the legality of paying their income taxes. Unlike the former
Illegal Tax Protester Program, each program addresses a specific taxpayer behavior. In addition,
taxpayers are not assigned to these individual programs on a permanent basis, as was the case in
the Illegal Tax Protester Program.
None of our prior reviews have identified instances in which the Illegal Tax Protester indicator
was needed on a taxpayer’s account to either accelerate tax enforcement actions and/or alert IRS
employees to be cautious when dealing with the taxpayer. As a result, TIGTA believes that
prohibiting the use of the Illegal Tax Protester designation has had no negative impact on
collection or examination activities.




                                                                                            Page 6
                        Fiscal Year 2013 Statutory Audit of Compliance With
                  Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                       Similar Designations



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with RRA 981
Section (§) 3707 and its own internal guidelines that prohibit IRS officers and employees from
referring to taxpayers as Illegal Tax Protesters or any similar designations. To accomplish the
objective, we:
I.      Determined if the Illegal Tax Protester coding on the Master File2 was removed by
        reviewing all tax accounts coded for accelerated collection activity as of
        September 30, 2012, on the Business Master File and Individual Master File. We
        analyzed 1,224,351 Master File records that had been coded for accelerated collection
        activity.3
        We also matched our historic computer extract of approximately 57,000 taxpayers
        designated as Illegal Tax Protesters before the RRA 98 was enacted to the records that
        had been coded for accelerated collection activity to determine if any new common codes
        were being used to classify the taxpayers as Illegal Tax Protesters.
II.     Determined if employees were using Illegal Tax Protester or any similar designations
        within the Activity Code field on the Taxpayer Information File by securing a copy of the
        database and analyzing 105,118 open records with activity between October 1, 2011, and
        September 30, 2012.
III.    Determined if the IRS is using any Frivolous Return Program codes as replacements for
        Illegal Tax Protester designations by reviewing guidance provided for the Frivolous
        Return Program and interviewing its Program Coordinator.
IV.     Determined if there is any relationship between Illegal Tax Protester designations and
        Potentially Dangerous Taxpayer/Caution Upon Contact indicator use on the Master File
        by reviewing guidance provided for the Potentially Dangerous Taxpayer/Caution Upon
        Contact Program and interviewing its Program Coordinator.
V.      Determined if the IRS Nonfiler Program is in compliance with the provisions established
        by RRA 98 § 3707(b) by reviewing guidance provided for the Nonfiler Program and
        interviewing its program coordinators.

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix VI for a glossary of terms.
3
  A Transaction Code 148 causes the accelerated issuance of a Taxpayer Delinquent Investigation or Taxpayer
Delinquent Account.
                                                                                                         Page 7
                      Fiscal Year 2013 Statutory Audit of Compliance With
                Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                     Similar Designations



VI.     Determined if employees were using the Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Account Management Services System by securing
        a copy of the database as of September 30, 2012, and analyzing 183,044,685 records with
        activity between October 1, 2011, and September 30, 2012.
VII.    Determined if employees were using the Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Automated Collection System by securing a copy
        of the database and analyzing 27,133,415 records as of September 30, 2012, with history
        action dates between October 1, 2011, and September 30, 2012.
VIII.   Determined if employees were using the Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Integrated Collection System by securing a copy of
        the database and analyzing 46,257,643 records as of September 30, 2012, with history
        action dates between October 1, 2011, and September 30, 2012.
Validity and reliability of data from computer-based systems
Unless otherwise noted, our limited tests of the reliability of data obtained from various IRS
systems did not identify any errors. We tested the reliability of the data by scanning the data
received for blank, incomplete, illogical, or improper data. In addition, we traced a judgmental
sample for each data set to selected IRS data files to ensure accuracy.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls that ensure the reliability of the
data used for our analysis. During our review, we tested the validity of the data used for our
analyses against selected IRS data, but we did not perform any specific testing of data input
controls. However, it should be noted that data from these same systems were used during prior
audits of Illegal Tax Protester designations, and no significant data issues were identified.




                                                                                             Page 8
                    Fiscal Year 2013 Statutory Audit of Compliance With
              Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                   Similar Designations



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Ali Vaezazizi, Lead Auditor
Julia Tai, Senior Auditor
James Allen, Information Technology Specialist




                                                                                     Page 9
                    Fiscal Year 2013 Statutory Audit of Compliance With
              Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                   Similar Designations



                                                                           Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief Technology Officer OS:CTO
Director, Office of Research, Analysis, and Statistics RAS
Director, Communications and Liaison, National Taxpayer Advocate TA:CL
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Chief, GAO/TIGTA/IMRS SE:CSO:HQO:GTI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    GAO/TIGTA Liaison, Deputy Commissioner for Operations Support OS
    GAO/TIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
    GAO/TIGTA Liaison, National Taxpayer Advocate TA
    GAO/TIGTA Liaison, Chief Technology Officer OS:CTO
    Senior Operations Advisor, Wage and Investment Division SE:W:BMO
    Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI




                                                                                   Page 10
                          Fiscal Year 2013 Statutory Audit of Compliance With
                    Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                         Similar Designations



                                                                                   Appendix IV

                                        Outcome Measure

While no recommendations were made in this report, TIGTA has made prior recommendations
that continue to benefit tax administration. This benefit will be incorporated into our Semiannual
Report to Congress.

Type and Value of Outcome Measure:
     Taxpayer Rights and Entitlements – Potential; 54 taxpayer accounts potentially affected
      (see page 3).

Methodology Used to Measure the Reported Benefit:
We reviewed:
          From the Account Management Services System,1 approximately 183 million records
           with activity between October 1, 2011, and September 30, 2012, and identified
           39 instances in which 33 employees used Illegal Tax Protester or a similar designation
           when referring to a specific taxpayer in the comment narrative field.
          From the Integrated Collection System, approximately 46 million records as of
           September 30, 2012, with history action dates between October 1, 2011, and
           September 30, 2012, and identified 15 instances in which 12 employees used Illegal Tax
           Protester or a similar designation when referring to a specific taxpayer in the comment
           narrative field.




1
    See Appendix VI for a glossary of terms.
                                                                                            Page 11
                     Fiscal Year 2013 Statutory Audit of Compliance With
               Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                    Similar Designations



                                                                                 Appendix V

             Previous Audit Reports Related to This
                       Statutory Review

TIGTA previously performed 14 mandatory audits in this subject area. These audits were:
TIGTA, Ref. No. 2012-30-066, Fiscal Year 2012 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jun. 2012).
TIGTA, Ref. No. 2011-30-040, Fiscal Year 2011 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Apr. 2011).
TIGTA, Ref. No. 2010-30-073, Fiscal Year 2010 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jul. 2010).
TIGTA, Ref. No. 2009-40-078, Fiscal Year 2009 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (May 2009).
TIGTA, Ref. No. 2008-40-124, Fiscal Year 2008 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (May 2008).
TIGTA, Ref. No. 2007-40-112, Fiscal Year 2007 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jun. 2007).
TIGTA, Ref. No. 2006-40-098, Fiscal Year 2006 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jul. 2006).
TIGTA, Ref. No. 2005-40-104, Fiscal Year 2005 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jul. 2005).
TIGTA, Ref. No. 2004-40-109, Fiscal Year 2004 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Jun. 2004).
TIGTA, Ref. No. 2003-40-098, Fiscal Year 2003 Statutory Audit of Compliance With Legal
Guidelines Prohibiting the Use of Illegal Tax Protester and Similar Designations (Apr. 2003).
TIGTA, Ref. No. 2002-40-162, Efforts Are Still Needed to Discourage the Use of Illegal Tax
Protester and Similar Designations (Sept. 2002).
TIGTA, Ref. No. 2001-10-141, Improvements Have Been Made to Eliminate Illegal Tax
Protester Designations (Sept. 2001).
TIGTA, Ref. No. 2000-10-119, Additional Action Is Needed to Eliminate Illegal Tax Protester
Designations (Sept. 2000).

                                                                                         Page 12
                     Fiscal Year 2013 Statutory Audit of Compliance With
               Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                                    Similar Designations



TIGTA, Ref. No. 1999-10-080, The Internal Revenue Service Is Addressing the Use of the Illegal
Tax Protester and Nonfiler Designations (Sept. 1999).




                                                                                      Page 13
                Fiscal Year 2013 Statutory Audit of Compliance With
          Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations



                                                                           Appendix VI

                         Glossary of Terms

Account Management       Provides employees access to multiple IRS systems through
Services System          their computers and allows for inventory management, case
                         delivery, history narratives, print-to-fax capabilities for
                         sending information to taxpayers, and electronic referral
                         generation.
Automated Collection     A telephone contact system through which telephone assistors
System                   collect unpaid taxes and secure tax returns from delinquent
                         taxpayers who have not complied with previous notices.
Business Master File     The IRS database that consists of Federal tax-related
                         transactions and accounts for businesses. These include
                         employment taxes, income taxes on businesses, and excise
                         taxes.
Campus                   The data processing arm of the IRS. The campuses process
                         paper and electronic submissions, correct errors, and forward
                         data to the Computing Centers for analysis and posting to
                         taxpayer accounts.
Fiscal Year              A 12-consecutive-month period ending on the last day of any
                         month. The Federal Government’s fiscal year begins on
                         October 1 and ends on September 30.
Individual Master File   The IRS database that maintains transactions or records of
                         individual tax accounts.
Integrated Collection    A system used by Collection function employees to report
System                   taxpayer case time and activity.
Internal Revenue         A manual containing the IRS’s internal guidelines.
Manual
Master File              The IRS database that stores various types of taxpayer
                         account information. This database includes individual,
                         business, and employee plans and exempt organizations data.
Taxpayer Information     A file containing entity and tax data processed at a given
File                     campus for all Taxpayer Identification Numbers.


                                                                                      Page 14
